Memorandum from the Office of the Inspector General



June 27, 2011

Robert M. Deacy, Sr., LP 5D-C

FINAL REPORT – INSPECTION 2009-12910-04 – PEER REVIEW OF THE STABILITY
ANALYSIS OF THE GYPSUM STACK AT THE WIDOWS CREEK FOSSIL PLANT



Attached is the subject final report for your review and action. Your written comments,
which addressed your management decision and/or actions taken, have been included in
the report. No further action is needed.

The Office of the Inspector General (OIG) contracted with Marshall Miller & Associates,
Inc., to conduct this review. All work pertaining to this review was conducted by Marshall
Miller. The OIG relied on Marshall Miller’s processes and procedures for quality control in
the attached report. Information contained in this report may be subject to public
disclosure. Please advise us of any sensitive information in this report that you
recommend be withheld.

If you have any questions, please contact Deana D. Scoggins, Senior Auditor, at
(423) 785-4822 or Greg R. Stinson, Director, Inspections, at (865) 633-7367. We
appreciate the courtesy and cooperation received from your staff during this review.




Robert E. Martin
Assistant Inspector General
 (Audits and Inspections)
ET 3C-K

DDS:FAJ
Attachment
cc: See page 2
Robert M. Deacy, Sr.
Page 2
June 27, 2011



cc (Attachment):
      Robert J. Fisher, LP 3K-C
      Michael B. Fussell, WT 9B-K
      Kimberly S. Greene, WT 7B-K
      Peyton T. Hairston, Jr., WT 7B-K
      John C. Kammeyer, LP 5D-C
      Tom Kilgore, WT 7B-K
      William R. McCollum, Jr., LP 6A-C
      Annette L. Moore, LP 3K-C
      Richard W. Moore, ET 4C-K
      Emily J. Reynolds, OCP 1L-NST
      John M. Thomas III, MR 6D-C
      Robert B. Wells, WT 9B-K
      Wendy Williams, WT 9B-K
      OIG File No. 2009-12910-04

     Mr. John Montgomery, Stantec
              Peer Review of Stantec Consulting Services, Inc.
          Report of Phase 2 Geotechnical Exploration, Gypsum Stack
                            Dated February 5, 2010

           Tennessee Valley Authority Widows Creek Fossil Plant (WCF)
                      Stevenson, Jackson County, Alabama



                                                                 Prepared for:




                                                     TVA Office of the Inspector General
                                                          Knoxville, Tennessee




                                                                 Prepared by:




                                                           Project No.: TVA106-11

                                                              Effective Date:
                                                             September 8, 2010


                                                              Date of Issuance:
                                                               June 21, 2011



Marshall Miller & Associates, Inc.
ENERGY/ENVIRONMENTAL/ENGINEERING/CARBON MANAGEMENT

5900 Triangle Drive
Raleigh, NC 27617
Tel (919) 786-1414 • Fax (919) 786-1418
www.mma1.com
                                                                                Peer Review of Stantec Consulting Services, Inc.
                        Report of Phase 2 Geotechnical Exploration and Slope Stability, Gypsum Stack, Widows Creek Fossil Plant
                                                                     Tennessee Valley Authority - Office of the Inspector General
                                                                   June 21, 2011 • Prepared by Marshall Miller & Associates, Inc.
                                                                                                                         • Page 1


Item 1:       TITLE PAGE
Title of Report

Peer Review of Stantec Consulting Services, Inc.
Report of Phase 2 Geotechnical Exploration and Slope Stability, Gypsum Stack, Widows Creek
Fossil Plant
Dated February 5, 2010
Tennessee Valley Authority Widows Creek Fossil Plant
Stevenson, Jackson County, Alabama

Project Location

The project site is located in Stevenson, Jackson County, Alabama, at the confluence of Widows
Creek and the Tennessee River.

Effective Date of Report

September 8, 2010

Qualified Persons



___________________________                                    ___________________________
William S. Almes, P.E.                                         Peter Lawson.
Formerly:                                                      Executive Vice President
TVA OIG Contract Manager                                       Principal-in-Charge
Senior Engineer & Director of                                  Marshall Miller & Associates, Inc.
Geotechnical Services
Marshall Miller & Associates, Inc.

                                                               ___________________________
                                                               Christopher J. Lewis, P.E.
                                                               Formerly:
                                                               Principal Engineer
                                                               D’Appolonia, Engineering Division of
                                                               Ground Technology, Inc.


___________________________
Edmundo J. Laporte, P.E.                                       ___________________________
Formerly:                                                      Aaron J. Antell, P.E.
Senior Engineer                                                Project Engineer
Marshall Miller & Associates, Inc.                             D’Appolonia, Engineering Division of
                                                               Ground Technology, Inc.
                                                                            Peer Review of Stantec Consulting Services, Inc.
                                       Report of Phase 2 Geotechnical Exploration, Gypsum Stack, Widows Creek Fossil Plant
                                                                 Tennessee Valley Authority - Office of the Inspector General
                                                               June 21, 2011 • Prepared by Marshall Miller & Associates, Inc.
                                                                                                                     • Page 2


Item 2:       EXECUTIVE SUMMARY
       The Tennessee Valley Authority Office of the Inspector General retained Marshall Miller
& Associates, Inc. (Marshall Miller) to conduct a peer review of the report entitled: Report of
Phase 2 Geotechnical Exploration and Slope Stability, Gypsum Stack, Widows Creek Fossil
Plant (Gypsum Stack Report) prepared by Stantec Consulting Services, Inc. (Stantec), of
Lexington, Kentucky. The Widows Creek Fossil (WCF) Plant is located on the Guntersville
Reservoir at the confluence of the Tennessee River and Widows Creek in Stevenson, Alabama.

       In summary:

       1. Marshall Miller believes that Stantec’s evaluations of the WCF gypsum stack provide
           a reasonable assessment of the margin of safety associated with the evaluated
           conditions, which indicates that the facility is not in danger of imminent failure.

       2. However, Marshall Miller did find that additional analyses and corresponding
           documentation are needed in order to assess the overall factor of safety of the stack in
           the midterm and long term, especially as the stack’s crest elevation approaches the
           maximum design height. Marshall Miller observed that the model used by Stantec is
           20 feet lower than the final height of the stack. Height is a fundamental factor for the
           stability of slopes and has a direct influence on the factor of safety. In other words,
           the stack that Stantec analyzed is 20 feet shorter than the proposed final height of the
           stack and, therefore, is more stable. It does not reflect the final conditions of the pile.

       Specifically, Marshall Miller found Stantec did not:

       •   Perform adequate testing to support reliance on historical data and shear strength
           characterization of these materials.
                                                                                        Peer Review of Stantec Consulting Services, Inc.
                                                   Report of Phase 2 Geotechnical Exploration, Gypsum Stack, Widows Creek Fossil Plant
                                                                             Tennessee Valley Authority - Office of the Inspector General
                                                                           June 21, 2011 • Prepared by Marshall Miller & Associates, Inc.
                                                                                                                                 • Page 3


          •    Calculate and document the exit gradients 1 and factors of safety against piping 2 for
               the 5-year build-out configurations. 3

          •    Perform sufficient investigation of the clay foundation soils.

Exploration and Testing of Foundation Soils

          Marshall Miller reviewed the scope, procedures, and results of the subsurface exploration
and laboratory testing programs performed by Stantec at the WCF gypsum stack. Based on this
review, it is Marshall Miller’s professional opinion that Stantec applied appropriate and
complementary suites of tests to characterize the engineering properties of the sedimented and
cast gypsum-fly ash materials. However, it is also Marshall Miller’s professional opinion that
Stantec did not perform enough exploration and testing of the foundation soils to support its
reliance on historical data and its shear strength characterization of these materials.                                            The
foundation soils have a controlling influence on the slope stability, but Stantec’s Gypsum Stack
Report does not supply sufficient data to characterize the foundation soils.                                         Accordingly,
Marshall Miller recommends that Stantec perform supplemental exploration, sampling, and
testing programs to better determine the extent and consistency of the clay foundation soils, more
thoroughly characterize the foundation soils, augment the available data, and support future
evaluations.        The characterization of the foundation soils would allow a more accurate
assessment of the overall stability of the stack, which could be directly influenced by the
properties of those soils.

Seepage Analysis Exit Gradients and Factors of Safety

          Marshall Miller also reviewed Stantec’s seepage analyses of the WCF gypsum stack,
including the material properties and boundary conditions. In Marshall Miller’s professional
opinion, Stantec performed seepage analyses of the gypsum stack using generally accepted
practices, including calibrating the seepage model using measured/observed conditions.

1
    Is the hydraulic gradient (a measure of energy loss when water flows through soil) near the surface where water exits a soil
    slope, embankment face, or similar surface.
2
    A measure of the level of safety where piping exists.
3
    The planned layout based on 5 years of normal operations.
                                                                             Peer Review of Stantec Consulting Services, Inc.
                                        Report of Phase 2 Geotechnical Exploration, Gypsum Stack, Widows Creek Fossil Plant
                                                                  Tennessee Valley Authority - Office of the Inspector General
                                                                June 21, 2011 • Prepared by Marshall Miller & Associates, Inc.
                                                                                                                      • Page 4


However, it appears that Stantec omitted the calculation of exit gradients and factors of safety
against piping for the 5-year build-out configurations.                        Accordingly, Marshall Miller
recommends that Stantec calculate the exit gradients and factors of safety against piping for the
5-year build-out configurations and document the results and their assessment thereof in an
amendment to the WCF Gypsum Stack Report in order to provide an accurate representation of
the seepage conditions within the final configuration of the stack and the factors of safety against
piping associated with those conditions.

Clay Foundation Soil Data

       Marshall Miller reviewed the results of Stantec’s gypsum stack slope stability analyses,
including development of material shear strength properties. It is Marshall Miller’s professional
opinion that Stantec performed stability analyses for static, long-term load conditions using
appropriate methodologies. However, Marshall Miller noted that data on the clay foundation
soils is lacking and has recommended additional investigation of the clay foundation. Stantec
should revisit the seepage and slope stability analyses if necessitated by the findings of this
additional investigation.     Also, Marshall Miller believes that Stantec can improve its
methodology to more rigorously characterize material properties in some instances. In order to
avoid possible overstatement of the in-situ shear strength of the gypsum-fly ash material,
Marshall Miller recommends that Stantec interpret shear strengths based on a definition of
failure correlating with pore-pressure parameter A-bar equal to zero in instances when negative
pore pressure (dilation) develops.

Periodic Reviews of 5-Year Transition to Dry Stacking/Landfilling

       Marshall Miller observed that the maximum design height for the gypsum stack is
approximately 20 feet higher than the crest elevation of the stack shown in Stantec’s stability
analysis results for the 5-year build-out. Provided the facility is converted to a dry landfill within
the projected 5 years, Stantec’s focus on the 5-year build-out configuration is appropriate.
Marshall Miller recommends that the configuration of the evolving gypsum stack be reviewed
annually, or more frequently, to ensure that the facility configuration and transition to dry
stacking/landfilling are conforming with Stantec’s projections.
                                                                          Peer Review of Stantec Consulting Services, Inc.
                                     Report of Phase 2 Geotechnical Exploration, Gypsum Stack, Widows Creek Fossil Plant
                                                               Tennessee Valley Authority - Office of the Inspector General
                                                             June 21, 2011 • Prepared by Marshall Miller & Associates, Inc.
                                                                                                                   • Page 5


Management’s Response to Draft Report

       To address this report, TVA management had Stantec review and respond to the findings
of this report. TVA management and its contractor provided additional information on the
findings and recommendations in this report. For complete responses, please see appendices A –
TVA Transmittal Memo and B – Stantec’s Response.

Marshall Miller Assessment of Management’s Comments to Draft Report

       Marshall Miller concluded that the additional information provided adequately addressed
the concerns and recommendations identified in the report. For a complete response, see
appendix C – Marshall Miller Response.
                                                                                            Peer Review of Stantec Consulting Services, Inc.
                                                       Report of Phase 2 Geotechnical Exploration, Gypsum Stack, Widows Creek Fossil Plant
                                                                                 Tennessee Valley Authority - Office of the Inspector General
                                                                               June 21, 2011 • Prepared by Marshall Miller & Associates, Inc.
                                                                                                                                     • Page 6


Item 3:              TABLE OF CONTENTS

ITEM 1:              TITLE PAGE ............................................................................ 1
ITEM 2:              EXECUTIVE SUMMARY .......................................................... 2
ITEM 3:              TABLE OF CONTENTS ............................................................. 6
ITEM 4:              INTRODUCTION....................................................................... 7
ITEM 5:              MARSHALL MILLER PROJECT TEAM ................................... 8
ITEM 6:              SCOPE OF SERVICE................................................................. 9
ITEM 7:              BACKGROUND....................................................................... 10
ITEM 8:              GEOTECHNICAL EXPLORATION AND LABORATORY
                     TESTING REVIEW ................................................................. 13
          8.1.       FINDINGS................................................................................................................13
          8.2.       RECOMMENDATIONS .............................................................................................15
ITEM 9:              SEEPAGE ANALYSES REVIEW ............................................. 17
          9.1.       FINDINGS................................................................................................................17
          9.2.       RECOMMENDATIONS .............................................................................................17
ITEM 10: SLOPE STABILITY ANALYSES REVIEW ............................... 18
          10.1.      FINDINGS................................................................................................................18
          10.2.      RECOMMENDATIONS .............................................................................................19

APPENDICES

MEMORANDUM DATED APRIL 5, 2011, FROM ROBERT M. DEACY TO
ROBERT E. MARTIN.............................................................................................................APPENDIX A

MEMORANDUM DATED APRIL 4, 2011, FROM STEPHEN H. BICKEL TO
JOHN KAMMEYER .............................................................................................................. APPENDIX B

MEMORANDUM DATED JUNE 15, 2011, FROM JOHN E. FEDDOCK AND PETER LAWSON TO
GREG R. STINSON ................................................................................................................ APPENDIX C
                                                                            Peer Review of Stantec Consulting Services, Inc.
                                       Report of Phase 2 Geotechnical Exploration, Gypsum Stack, Widows Creek Fossil Plant
                                                                 Tennessee Valley Authority - Office of the Inspector General
                                                               June 21, 2011 • Prepared by Marshall Miller & Associates, Inc.
                                                                                                                     • Page 7


Item 4:        INTRODUCTION
        The Tennessee Valley Authority (TVA) Office of the Inspector General (OIG) retained
Marshall Miller & Associates, Inc. (Marshall Miller), to conduct a peer review of the report
entitled:   Report of Phase 2 Geotechnical Exploration and Slope Stability, Gypsum Stack,
Widows Creek Fossil Plant (Gypsum Stack Report) prepared by Stantec Consulting Services,
Inc. (Stantec), of Lexington, Kentucky. TVA retained Stantec to address geotechnical issues
identified during the Phase 1 facility assessment and corresponding Phase 1 report. During its
engagement, Marshall Miller reviewed the Gypsum Stack Report dated February 5, 2010, and
has documented its results herein.

        This report presents the following:

        •   Marshall Miller Project Team.

        •   Description of Marshall Miller’s scope of service.

        •   Background information for the Widows Creek Fossil Plant.

        •   Findings and recommendations from Marshall Miller’s review of Stantec’s
            geotechnical exploration, laboratory testing, seepage analyses, and slope stability
            analyses.
                                                                                      Peer Review of Stantec Consulting Services, Inc.
                                                 Report of Phase 2 Geotechnical Exploration, Gypsum Stack, Widows Creek Fossil Plant
                                                                           Tennessee Valley Authority - Office of the Inspector General
                                                                         June 21, 2011 • Prepared by Marshall Miller & Associates, Inc.
                                                                                                                               • Page 8


Item 5:            MARSHALL MILLER PROJECT TEAM
         Marshall Miller, an employee-owned and Engineering News-Record Magazine top 500
company, began offering geologic services to the mining industry in 1975. Marshall Miller
provides a range of services to the mining, utility, financial, governmental, and legal industries.
Marshall Miller employs nearly 200 engineers, geologists, scientists, and other professionals who
work from regional offices in ten states.

         Marshall Miller retained D’Appolonia, Engineering Division of Ground Technology,
Inc., of Monroeville, Pennsylvania, for its expertise with tailings impoundments and dams,
problem ground conditions, and forensic investigations.

         The Marshall Miller Project Team comprises the following professionals:

         •    Mr. Peter Lawson – Executive Vice President & Principal-in-Charge.

         •    Mr. William S. Almes, P.E. – Director of Geotechnical Services & Contract Manager
              for the TVA OIG.

         •    Mr. Edmundo J. Laporte, P.E. – Senior Engineer.

         •    Mr. William M. Lupi, P.E. – Project Engineer.

         •    Mr. Richard G. Almes, P.E. – Principal Geotechnical Engineer.

         •    Mr. Christopher J. Lewis, P. E. – Principal Geotechnical Engineer. 4

         •    Mr. Aaron J. Antell, P.E. – Project Engineer.4




4
    Christopher J. Lewis, P.E., and Aaron J. Antell, P.E., are Geotechnical Subconsultants of Marshall Miller and as of the
    effective date of this report were employed by D’Appolonia, Engineering Division of Ground Technology, Inc., Monroeville,
    Pennsylvania.
                                                                            Peer Review of Stantec Consulting Services, Inc.
                                       Report of Phase 2 Geotechnical Exploration, Gypsum Stack, Widows Creek Fossil Plant
                                                                 Tennessee Valley Authority - Office of the Inspector General
                                                               June 21, 2011 • Prepared by Marshall Miller & Associates, Inc.
                                                                                                                     • Page 9


Item 6:          SCOPE OF SERVICE
          The OIG engaged Marshall Miller to provide a technical peer review of the geotechnical
exploration, laboratory testing, and engineering analyses performed by Stantec for the gypsum
stack at the Widows Creek Fossil Plant. Marshall Miller did not perform a parallel study (field
exploration, laboratory testing, and engineering analyses) to the Stantec study of the existing
gypsum stack conditions. Marshall Miller relied on the geotechnical exploration and test data
provided in the Gypsum Stack Report to formulate the findings and recommendations in this
report.

          Marshall Miller peer reviewed Stantec’s Gypsum Stack Report dated February 5, 2010,
and Appendices A through L received in electronic format (pdf files) on March 3, 2010.
Marshall Miller is unaware of newer versions of these documents. Marshall Miller based its
professional opinions on the above-referenced documents.

          In providing the professional services to compile this report, Marshall Miller used
generally     accepted   engineering   principles       and      practices       to     develop        findings        and
recommendations. Marshall Miller reserves the right to amend and supplement this report based
on additional information. If OIG, TVA, TVA’s consultants, or others discover additional
information pertinent to the engineering performance of the gypsum stack at the Widows Creek
Fossil Plant, Marshall Miller requests the opportunity to review the information for relevance to
Marshall Miller’s findings and recommendations herein.
                                                                            Peer Review of Stantec Consulting Services, Inc.
                                       Report of Phase 2 Geotechnical Exploration, Gypsum Stack, Widows Creek Fossil Plant
                                                                 Tennessee Valley Authority - Office of the Inspector General
                                                               June 21, 2011 • Prepared by Marshall Miller & Associates, Inc.
                                                                                                                    • Page 10


Item 7:        BACKGROUND
       The Widows Creek Fossil (WCF) Plant is located on the Guntersville Reservoir at the
confluence of the Tennessee River and Widows Creek in Stevenson, Alabama. The WCF plant
has eight coal-fired, turbine-generator units. Generators seven and eight are equipped with flue
gas desulfurization units. The flue gas desulfurization units use limestone spray and forced
oxidation to convert sulfur dioxide particles in the exhaust to gypsum (calcium sulfate).
Additionally, generator units seven and eight generate fly ash as a waste product from burning
coal. The gypsum and fly ash are mixed, then wet sluiced in pipes to the gypsum-fly ash
disposal facility (gypsum stack).

       The gypsum stack is situated along the eastern side of Widows Creek, northeast of the
WCF Plant. The facility initially operated by sluicing the gypsum-fly ash material to disposal
ponds and decanting water to a clarification pond. In 1994, the gypsum stack was expanded and
started using the wet stacking method. In its current configuration, the facility is comprised of
four disposal ponds and one stilling pond. The wet stacking operation includes expanding
disposal volume vertically by building perimeter dikes on top of hydraulically placed gypsum-fly
ash material. The sluiced gypsum-fly ash arrives at the facility near the southwest corner of the
gypsum stack and is then directed into the southern or northern rim ditch. The rim ditches flow
to the rim-ditch outfall located at the northern corner of the gypsum stack.

       On January 9, 2009, a release occurred at the site in which gypsum-fly ash material was
discharged from Pond 2B into the adjacent stilling pond. The volume of material (approximately
10,000 gallons of fly ash and gypsum waste and process water) overwhelmed the stilling pond,
causing it to breach and overflow into Widows Creek. According to TVA personnel, the liquid
waste materials impounded at the top of the gypsum pond drained freely into the adjacent stilling
pond after an old cap dislodged from a decommissioned spillway pipe, which was formerly used
to drain water from the gypsum pond into the settling pond.

       TVA’s efforts continued throughout 2009 to evaluate and stabilize portions of the
gypsum stack (and other waste disposal areas of the plant) to prevent future failures. From June
to August 2009, TVA authorized the implementation of Stantec’s “Work Plan No. 5” at the
                                                                            Peer Review of Stantec Consulting Services, Inc.
                                       Report of Phase 2 Geotechnical Exploration, Gypsum Stack, Widows Creek Fossil Plant
                                                                 Tennessee Valley Authority - Office of the Inspector General
                                                               June 21, 2011 • Prepared by Marshall Miller & Associates, Inc.
                                                                                                                    • Page 11


gypsum stack.     This construction phase consisted of slope re-grading and spillway pipe
reconstruction within the area between the gypsum stack and stilling pond. In early November
2009, Stantec presented a final report to TVA and was subsequently issued a request to cease
operations at the site since URS Corporation (URS) was engaged by TVA to take over the
engineering work at the site going forward. TVA told Stantec the transition period could last
approximately six weeks.

        In December 2009, TVA personnel (unsupported by any outside professional engineering
firm) completed additional construction work near the crest of Pond 2B, installing a segment of
buried pipe between the pipe inlet and a junction box.                   The excavation for the pipe was
approximately 17-feet deep with sloped sidewalls, resulting in a large trapezoidal-shaped pipe
trench. Backfilling was completed by TVA and, evidently, standard compaction control methods
were not employed.     On January 4, 2010, following the completion of construction, TVA
allowed sluiced ash/gypsum material to flow into Pond 2B.

        On January 5, 2010, just one day after the TVA re-introduced sluiced ash/gypsum
material onto the surface of the gypsum stack, a second release occurred at the WCF gypsum
stack. A TVA equipment operator noticed that the sluiced waste material was permeating
through the newly backfilled trench area and spilling onto the exterior slope and bench areas
while collecting into the stilling pond. According to a review of documentation, it was evident
that the filling of the pond caused saturation of the backfill material in the trench which led to
soil “piping” and a localized failure of the backfilled containment dike above the pipe segment.
Fortunately, the TVA equipment operator reacted quickly and used the heavy equipment to
temporarily fill in the eroded area with on-site material so that the breach could be minimized.

        Following the January 9, 2009, breach, TVA retained the services of Stantec to provide
ongoing engineering support.      Their involvement has consisted of a comprehensive field
investigation, engineering analyses (slope stability), and full-time construction quality
assurance/control of necessary site improvements. Stantec will continue to be involved with
work associated with Pond 2B, while URS will focus their efforts on the Closure Plan for the
entire site.
                                                                                          Peer Review of Stantec Consulting Services, Inc.
                                                     Report of Phase 2 Geotechnical Exploration, Gypsum Stack, Widows Creek Fossil Plant
                                                                               Tennessee Valley Authority - Office of the Inspector General
                                                                             June 21, 2011 • Prepared by Marshall Miller & Associates, Inc.
                                                                                                                                  • Page 12


          TVA has classified the gypsum stack as a “high hazard” potential structure according to
federal guidelines for hazard classification of dams. Based on the high hazard 5 rating and the
uncontrolled discharge on January 9, 2009, TVA initiated the conversion from wet stacking to
dry stacking disposal at the WCF gypsum stack.




5
    A high hazard potential rating indicates that a failure will probably cause loss of human life. The rating is not an indication
    of the structural integrity of the unit or the possibility that a failure will occur in the future; it merely allows dam safety and
    other officials to determine where significant damage or loss of life may occur if there is a structural failure of the unit. This
    is based upon FEMA Federal Guidelines for Dam Safety – April 2004.
                                                                             Peer Review of Stantec Consulting Services, Inc.
                                        Report of Phase 2 Geotechnical Exploration, Gypsum Stack, Widows Creek Fossil Plant
                                                                  Tennessee Valley Authority - Office of the Inspector General
                                                                June 21, 2011 • Prepared by Marshall Miller & Associates, Inc.
                                                                                                                     • Page 13


Item 8:         GEOTECHNICAL EXPLORATION AND LABORATORY
                TESTING REVIEW
        Marshall Miller reviewed the scope, procedures, and results of the subsurface exploration
and laboratory testing performed by Stantec at the gypsum stack. Marshall Miller based its
review on descriptions of the exploration and testing in the Gypsum Stack Report and relevant
appended documents, including geotechnical drawings, boring logs, and results of laboratory
testing. In general, it is Marshall Miller’s opinion that the subsurface exploration and laboratory
testing programs applied appropriate and complementary suites of tests to characterize the
engineering properties of the sedimented and cast gypsum-fly ash materials.                               However, in
Marshall Miller’s opinion, Stantec’s scope of subsurface exploration and laboratory testing did
not provide enough information to characterize the clay foundation soils, considering that the
gypsum stack is a high hazard structure and the clay foundation soils are a primary controlling
factor in the overall stability.

8.1.    FINDINGS
        The shear strength and extent of the clay foundation soils primarily control the stability of
the gypsum stack, along with the seepage conditions. The classifications of the foundation soils
produced by Stantec indicate that the soils are predominately highly plastic/fat clay. In Marshall
Miller’s opinion, the exploration and laboratory testing has the following deficiencies:

        •   Based on Table 3 of the Gypsum Stack Report, Stantec terminated 10 of the 24 auger
            sample borings before refusal. Marshall Miller understands it may be impractical to
            advance holes used for piezometer installation to bedrock; however, when practical,
            borings should have been advanced to auger refusal (i.e., the depth at which further
            penetration is impractical employing the safe operating torque and available down
            pressure of the drilling rig) to increase exploratory information through the
            foundation soils. In some instances, borings were seemingly advanced for collection
            of undisturbed soil samples, but terminated upon encountering the clay foundation
            soils. Although historical documents include borings that penetrated the foundation
            soils and encountered bedrock, it is Marshall Miller’s opinion that Stantec did not
                                                                                        Peer Review of Stantec Consulting Services, Inc.
                                                   Report of Phase 2 Geotechnical Exploration, Gypsum Stack, Widows Creek Fossil Plant
                                                                             Tennessee Valley Authority - Office of the Inspector General
                                                                           June 21, 2011 • Prepared by Marshall Miller & Associates, Inc.
                                                                                                                                • Page 14


               determine the extent and consistency of the foundation clays for verification purposes
               and broader delineation of the soils, wherever practical, during its subsurface
               exploration activities.

          •    Stantec collected 2 undisturbed samples of the clay foundation soil compared to
               approximately 40 undisturbed samples of the gypsum-fly ash materials. Although
               historical borings provide classification testing for the clay foundation soils, there is
               little shear strength testing on foundation soil compared to the gypsum-fly ash
               materials.

          •    The boring logs do not indicate results of field measurements using a pocket
               penetrometer 6 or torvane 7 device in clay foundation soils. While Marshall Miller
               acknowledges these devices are not ideal for determination of shear strength, they
               provide an indication of the consistency of cohesive soils. In its report, Stantec does
               not indicate how it estimated the consistency of cohesive soils, but indicates standard
               penetration tests (SPTs) are typically used to estimate the consistency of soil. Field
               devices like the pocket penetrometer are more appropriate for determining the
               consistency of cohesive soils than SPT results.

          •    Stantec performed vane shear testing on gypsum-fly ash materials in borings V-9 and
               V-10, but did not extend this in-situ testing into the clay foundation soils to help
               characterize undrained behavior.

          •    Stantec only performed one consolidated, undrained triaxial test series on undisturbed
               samples and natural moisture content testing on split-spoon samples of the foundation
               soil. Also, classification and consolidation test data on the foundation soils are
               lacking. Laboratory classification testing, including grain-size analyses and Atterberg
               limits tests are used to verify the field classification of soils and supplement shear


6
    A device used to estimate the unconfined compressive strength and consistency of cohesive/clayey soils.
7
    A miniature device used for the rapid estimation of undrained shear strength of cohesive/clayey soil samples in either the
    field or laboratory.
                                                                                Peer Review of Stantec Consulting Services, Inc.
                                           Report of Phase 2 Geotechnical Exploration, Gypsum Stack, Widows Creek Fossil Plant
                                                                     Tennessee Valley Authority - Office of the Inspector General
                                                                   June 21, 2011 • Prepared by Marshall Miller & Associates, Inc.
                                                                                                                        • Page 15


             strength testing in characterizing soil behavior. Consolidation testing provides an
             indication of soil stress history and compressibility characteristics.

8.2.     RECOMMENDATIONS
         In Marshall Miller’s opinion, Stantec performed insufficient sampling and laboratory
testing to characterize the behavior of the clay foundation soils with a level of confidence
consistent with the scope and goals of its evaluation. Therefore, Marshall Miller recommends
that Stantec perform a supplemental scope of investigation and testing of the clay foundation
soils.

         •   Based on the findings above, Marshall Miller recommends that Stantec perform
             supplemental subsurface exploration, sampling, and testing programs to better
             determine the extent and consistency of the clay foundation soils, more thoroughly
             characterize the foundation soils, augment the available data, and support future
             evaluations. The supplemental subsurface exploration can be focused along sections
             of the gypsum stack where Stantec obtained lower slope stability factors of safety for
             deep-seated failure surfaces passing through the clay foundation soils and where more
             highly plastic and/or sensitive clays exist and could have a significant bearing on the
             predicted margin of safety.

         •   Based on the currently available subsurface information, Stantec should plan to
             acquire additional undisturbed samples of the softer, more plastic, and more sensitive
             clay foundation soils for laboratory testing.

         •   Stantec should obtain and report the results of field measurements using a pocket
             penetrometer or torvane device on recovered samples of the clay foundation soils.

         •   In conjunction with the supplemental subsurface exploration, Marshall Miller
             recommends that Stantec perform field vane shear testing in the softer clay
             foundation soils to help characterize undrained shear strength (peak and residual) and
             behavior. Soil samples should be collected from each field vane shear test horizon
                                                                    Peer Review of Stantec Consulting Services, Inc.
                               Report of Phase 2 Geotechnical Exploration, Gypsum Stack, Widows Creek Fossil Plant
                                                         Tennessee Valley Authority - Office of the Inspector General
                                                       June 21, 2011 • Prepared by Marshall Miller & Associates, Inc.
                                                                                                            • Page 16


    for laboratory index testing (moisture content, grain size distribution, and Atterberg
    limits).

•   Marshall Miller also recommends that Stantec subject the additional undisturbed
    samples of the clay foundation soils to laboratory index (moisture content, density,
    grain size distribution, and Atterberg limits), shear strength (e.g., isotropically
    consolidated undrained triaxial compression tests), and compressibility/consolidation
    testing.
                                                                             Peer Review of Stantec Consulting Services, Inc.
                                        Report of Phase 2 Geotechnical Exploration, Gypsum Stack, Widows Creek Fossil Plant
                                                                  Tennessee Valley Authority - Office of the Inspector General
                                                                June 21, 2011 • Prepared by Marshall Miller & Associates, Inc.
                                                                                                                     • Page 17


Item 9:        SEEPAGE ANALYSES REVIEW
       Marshall Miller reviewed the scope, procedures, and results of Stantec’s seepage analyses
of the gypsum stack at WCF, including the material properties and boundary conditions.
Marshall Miller based its review on the documentation included by Stantec in its report.

       In general, it is Marshall Miller’s opinion that Stantec applied appropriate methods,
performed seepage analyses of the gypsum stack using generally accepted practices, and arrived
at reasonable predictions and conclusions.

9.1.   FINDINGS
       For the seepage analyses, Stantec calibrated its model by changing permeability
properties so that the modeled piezometric conditions approximated the observed field
conditions. Marshall Miller agrees with the approach of calibrating the model to observed
conditions.

       Based on review of the Gypsum Stack Report and related appendices, it appears that
Stantec omitted the calculation of exit gradients and factors of safety against piping for the 5-
year build-out configurations.    This information is important to assessments of the facility
stability for the projected 5-year build-out configurations.

9.2.   RECOMMENDATIONS
       Marshall Miller recommends that Stantec calculate the exit gradients and factors of safety
against piping for the 5-year build-out configurations, and document the results and their
assessment thereof in an amendment to the WCF Gypsum Stack Report.
                                                                               Peer Review of Stantec Consulting Services, Inc.
                                          Report of Phase 2 Geotechnical Exploration, Gypsum Stack, Widows Creek Fossil Plant
                                                                    Tennessee Valley Authority - Office of the Inspector General
                                                                  June 21, 2011 • Prepared by Marshall Miller & Associates, Inc.
                                                                                                                       • Page 18


Item 10:          SLOPE STABILITY ANALYSES REVIEW
          Marshall Miller reviewed the scope, procedures, and results of Stantec’s slope stability
analyses of the gypsum stack at WCF, including development of material shear strength
properties. Marshall Miller based its review on the documentation included by Stantec in its
report.

          In general, it is Marshall Miller’s opinion that Stantec performed stability analyses for
static, long-term load conditions using appropriate methodologies. However, as expressed in this
report under Item 8, Geotechnical Exploration and Laboratory Testing Review, the amount of
exploration and test data available to characterize the clay foundation soils is limited. This is a
source of concern, especially considering the fact that the gypsum stack is a high hazard structure
and the clay foundation soils are a primary controlling factor in the overall stability.

10.1. FINDINGS
          Marshall Miller noted the following findings during the peer review:

          •   As outlined under Item 8 of this report, the investigation of the clay foundation soils
              was deficient, and the amount of data available to characterize the foundation is
              limited, especially relative to the scope of investigation of the gypsum-fly ash
              materials.

          •   Stantec performed isotropically consolidated undrained triaxial compression tests on
              sedimented gypsum-fly ash and cast gypsum-fly ash materials. Stantec assumed that
              failure occurred at the point of maximum effective principal stress ratio. Based on
              laboratory test results in Appendix F, the maximum effective principal stress ratio
              occurs at significant negative pore pressures for some test samples. The definition of
              failure at a stress state when significant negative pore pressure exists in low plasticity
              to non-plastic silt-like materials presents the following issues:

              o Significant negative pore pressure development suggests the gypsum-fly ash
                 materials exhibit dilative (expansive) behavior when sheared undrained. Volume
                                                                            Peer Review of Stantec Consulting Services, Inc.
                                       Report of Phase 2 Geotechnical Exploration, Gypsum Stack, Widows Creek Fossil Plant
                                                                 Tennessee Valley Authority - Office of the Inspector General
                                                               June 21, 2011 • Prepared by Marshall Miller & Associates, Inc.
                                                                                                                    • Page 19


              is constant during undrained loading of a saturated soil. Negative pore pressures
              can cause undrained shear strength to exceed drained shear strength and lead to
              interpretation of an overstated in-situ undrained shear strength. It is customary to
              neglect undrained strength above the drained strength in this situation.

           o At negative pore pressures (generally less than negative one ton per square foot
              (tsf)), cavitation can occur in the pore water; however, it depends on the amount
              of dissolved air present in the pore water. If cavitation occurs, air is released from
              solution within the pore water, and the test sample may no longer be saturated.
              Cavitation generally limits the amount that the undrained strength might exceed
              the drained strength.

           o For practical purposes, the dilative material behavior and selected failure criteria
              do not significantly affect the characterization of the effective shear strength but
              will affect the characterization of undrained shear strength.

       •   The maximum design height for the gypsum stack is approximately 20 feet higher
           than the crest elevation of the stack shown in Stantec’s stability analysis results for
           the 5-year build-out. Provided the facility is converted to a dry landfill within the
           projected 5 years, Stantec’s focus on the 5-year build-out configuration is appropriate.

10.2. RECOMMENDATIONS
       Based on the findings described above, Marshall Miller has developed the following list
of recommendations for consideration:

       •   As outlined under Item 8.2 of this report, Marshall Miller recommends that Stantec
           perform supplemental subsurface exploration, sampling, and testing programs to
           better determine the extent and consistency of the clay foundation soils, more
           thoroughly characterize the foundation soils, augment the available data, and support
           future evaluations. Stantec should revisit the seepage and slope stability analyses if
           necessitated by the findings of this additional investigation of the clay foundation.
                                                                    Peer Review of Stantec Consulting Services, Inc.
                               Report of Phase 2 Geotechnical Exploration, Gypsum Stack, Widows Creek Fossil Plant
                                                         Tennessee Valley Authority - Office of the Inspector General
                                                       June 21, 2011 • Prepared by Marshall Miller & Associates, Inc.
                                                                                                            • Page 20


•   Marshall Miller recommends that Stantec use the pore pressure parameter, A-bar
    (ratio of change in pore pressure due to deviator stress increase to difference between
    changes in principal stresses), equal to zero as a failure criterion for selecting
    undrained and drained shear strength parameters from triaxial test results in instances
    when significant negative pore pressure (dilation) develops.

•   Marshall Miller recommends that the configuration of the evolving gypsum stack be
    reviewed annually, or more frequently, to ensure that the facility configuration and
    transition to dry stacking/landfilling are conforming with Stantec’s projections.
                                                                                   Appendix A



April 5, 2011



Mr. Robert E. Martin, ET 3C-K

TVA COMMENTS TO OIG DRAFT INSPECTION 2009-12910-04 - PEER REVIEW OF THE
STABILITY ANALYSIS OF THE GYPSUM STACK AT THE WIDOWS CREEK FOSSIL PLANT



Attached please find Stantec’s letter to John Kammeyer dated April 4, 2011, which represents
TVA comments in response to your draft inspection regarding the stability analysis of the
gypsum stack at Widows Creek Fossil Plant.

We appreciate the opportunity to provide comments on this draft report. Please direct any
questions to John Kammeyer at 423-280-0407.




Robert M. Deacy, Sr.
Senior Vice President and Executive
Kingston Ash Recovery Project

DJC
Attachment
cc (Attachment):
      Joan M. Dodd, LP 5E-C
      Robert J. Fisher, LP 3K-C
      Michael B. Fussell, WT 9B-K
      Peyton T. Hairston, Jr., WT 7B-K
      John C. Kammeyer, LP 5D-C
      William R. McCollum, Jr., LP 6A-C
      Annette L. Moore, LP 3K-C
      John M. Thomas III, MR 3A-C
      Robert B. Wells, WT 9B-K
      Wendy Williams, WT 9B-K
      OIG File No. 2009-12910-04

     Mr. John Montgomery, Stantec
Appendix B
Appendix B
Appendix B
Appendix B
Appendix B
Appendix B
                                                                                                     Appendix C
       Ashland, VA •(804) 798-6525                                                     Charleston, WV •(304) 344-3970
       Beckley, WV •(304) 255-8937                                                      Kingsport, TN •(423) 279-9775
       Bluefield, VA •(276) 322-5467                                                    Lexington, KY •(859) 263-2855
      Bossier City, LA •(318) 747-7734                                                   Mission, KS •(913) 648-4424
       Camp Hill, PA •(717) 730-7810                                                     Raleigh, NC •(919) 786-1414
                                                    www.mma1.com
     5900 Triangle Drive / Raleigh, NC 27617 / Tel (919) 786-1414 / Fax (919) 786-1418 / Email raleigh@mma1.com

                                                  June 15, 2011



    Mr. Greg R Stinson
    Director, Inspections
    Tennessee Valley Authority
    Office of the Inspector General
    1101 Market Street EB 2G-C
    Chattanooga, TN 37402-2801

    Re:       Response to Comments to OIG Draft Inspection 2009-12910-04
              Facility:     Widows Creek Fossil Plant
              Report Title: Report of Geotechnical Exploration and Slope Stability, Gypsum Stack,
                            Widows Creek Fossil Plant
              Firm:         Stantec Consulting Services Inc. (Stantec)
              Date:         January 28, 2010

    Dear Mr. Stinson:

    Marshall Miller & Associates, Inc. (Marshall Miller) was contracted by the Tennessee Valley
    Authority Office of the Inspector General (TVA OIG) to provide response and rebuttal to
    comments prepared by Stantec Consulting Services Inc. (Stantec) dated March 24, 2011.
    These comments were prepared for TVA in response to Marshall Miller’s Technical Peer
    Review of the January 28, 2010, draft report prepared by Stantec entitled Report of Geotechnical
    Exploration and Slope Stability Gypsum Stack, Widows Creek Fossil Plant.


    Mr. Hugo R. Aparicio, PE, and Mr. Robert D. Fuller, PE, of Stantec reviewed Marshall Miller’s
    peer review and provided response in a letter report dated April 4, 2011. Marshall Miller’s
    responses are provided below.

    Stantec’s Response to Items 8.1 and 8.2 –First and Second Bullets
    Stantec’s response is acknowledged and accepted.

    Stantec’s Response to Items 8.1 and 8.2 –Third and Fourth Bullets
    Stantec’s responses are acknowledged, and accepted.




     ENERGY & MINERAL RESOURCES •CIVIL & STRUCTURAL ENGINEERING •ENVIRONMENTAL SCIENCES •HYDROGEOLOGY & GEOLOGY
CARBON MANAGEMENT •EXPERT WITNESS TESTIMONY •MINING ENGINEERING •GEOPHYSICAL LOGGING SERVICES •PETROLEUM ENGINEERING
                                                                                              Appendix C
                                                                                        Mr. Greg R. Stinson
                                                 Tennessee Valley Authority-Office of the Inspector General
                   Technical Rebuttal to April 4, 2011, TVA Response to OIG Draft Inspection, 2009-12910-04
                      Peer Review of Stability Analysis of the Gypsum Stack at the Widows Creek Fossil Plant
                                                                                               June 15, 2011
                                                                                                 Page 2 of 2

Stantec’s Response to Items 8.1 and 8.2 –Fifth Bullets
Stantec’s response is acknowledged and accepts the testing of the underlying foundation soils for
future evaluations.

Stantec’s Response to Items 9.1 and 9.2
Stantec’s response is acknowledged and accepted.

Stantec’s Response to Items 10.1 and 10.2 –First and Second Bullets
Stantec’s response is acknowledged and accepted.

Stantec’s Response to Items 10.1 and 10.2 –Third Bullet
Stantec’s response is acknowledged and accepted.

Thank you for the opportunity to submit a response to comments.                  Should you have any
questions or need additional clarification, please contact Peter Lawson at (304) 255-8937


Sincerely,

MARSHALL MILLER & ASSOCIATES, INC.




John E. Feddock, P.E.                                Peter Lawson
Senior Vice President                                Executive Vice President
                                                     Principal-in-Charge

Attachments
cc:    Mr. Robert E. Martin, Assistant Inspector General (Audits & Inspections)
       Ms. Julie Lovingood, Auditor
